No. 20-5085
IN THE SUPREME COURT OF THE UNITED STATES

JOE EDWARD JOHNSON, Petitioner
v.
STATE OF CALIFORNIA, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA

CERTIFICATE OF SERVICE

I, Jon Nichols, hereby certify that my business address is 1111
Broadway Suite 1000, in the County of Alameda and the City of Oakland,
Telephone (510) 267-3300; that on October 30, 2020, I served, pursuant to
Supreme Court Rule 29, one true copy of the REPLY BRIEF IN
SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the
above-cntitled matter on the following partics in electronic format at the
email addresses listed below on. Electronic service is made pursuant to this

Court’s order of April 15, 2020 upon the consent of the parties.

 

 

 

Melissa Lipon, DAG Clara M. Levers, DAG

Office of the Attorney General Office of the Attorney General
P.O. Box 944255 P.O. Box 944255

Sacramento, CA 94244 Sacramento, CA 94244

(916) 445-9555 (916) 210-7773

Melissa. lipon@doj.ca.gov Clara.Levers@doj.ca.gov

 

 

I declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct. Signed on October 30,

2020 at Alameda County, California.

=}

7 JON NICHOLS
